APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
————
No. 18-16663
————
CITY OF OAKLAND, a Municipal Corporation, and The
People of the State of California, acting by and
through the Oakland City Attorney; CITY AND
COUNTY OF SAN FRANCISCO, a Municipal Corporation,
and The People of the State of California, acting by
and through the San Francisco City Attorney Dennis
J. Herrera,
Plaintiffs-Appellants,
v.
BP PLC, a public limited company of England and
Wales; CHEVRON CORPORATION, a Delaware
corporation; CONOCOPHILLIPS, a Delaware
corporation; EXXON MOBIL CORPORATION, a New
Jersey corporation; ROYAL DUTCH SHELL PLC, a
public limited company of England and Wales; DOES,
1 through 10,
Defendants-Appellees.
————
Appeal from the United States District Court
for the Northern District of California
William Alsup, District Judge, Presiding,
D.C. Nos.
3:17-cv-06011-WHA
3:17-cv-06012-WHA
————

2a
Argued and Submitted February 5, 2020
Pasadena, California
Filed May 26, 2020
————
Before: Sandra S. Ikuta, Morgan Christen,
and Kenneth K. Lee, Circuit Judges.
————
OPINION
————
IKUTA, Circuit Judge:
Two California cities brought actions in state court
alleging that the defendants’ production and promotion of fossil fuels is a public nuisance under California law, and the defendants removed the complaints
to federal court. We hold that the state-law claim for
public nuisance does not arise under federal law for
purposes of 28 U.S.C. § 1331, and we remand to the
district court to consider whether there was an alternative basis for subject-matter jurisdiction.
I
In September 2017, the city attorneys for the City
of Oakland and the City and County of San Francisco
filed complaints in California state court asserting a
California public-nuisance claim against five of the
world’s largest energy companies: BP p.l.c., Chevron
Corporation, ConocoPhillips, Exxon Mobil Corporation, and Royal Dutch Shell plc.1 The complaints

1 Under California law, a city attorney may bring an action to
abate a public nuisance “in the name of the people of the State of
California,” Cal. Civ. Proc. Code § 731, and so the complaints
were brought in the name of the people of the State of Califor-

3a
claim that the defendants are liable for causing or
contributing to a public nuisance under California
law. See Cal. Civ. Code §§ 3479, 3480, 3491, 3494;
Cal. Civ. Proc. Code § 731. We refer to the plaintiffs
collectively as the “Cities” and to the defendants collectively as the “Energy Companies.”
According to the complaints, the Energy Companies’ “production and promotion of massive quantities
of fossil fuels” caused or contributed to “global warming-induced sea level rise,” leading to coastal flooding
of low-lying shorelines, increased shoreline erosion,
salt-water impacts on the Cities’ wastewater treatment systems, and interference with stormwater infrastructure, among other injuries. The complaints
further allege that the Cities are incurring costs to
abate these harms and expect the injuries will become more severe over the next 80 years. Accordingly, the Cities seek an order of abatement requiring
the Energy Companies to fund a “climate change adaptation program” for Oakland and San Francisco
“consisting of the building of sea walls, raising the
elevation of low-lying property and buildings and
building such other infrastructure as is necessary for
[the Cities] to adapt to climate change.”
In October 2017, the Energy Companies removed
the Cities’ complaints to federal court. The Energy
Companies identified seven different grounds for subject-matter jurisdiction in their notices of removal,
including that the Cities’ public-nuisance claim was
governed by federal common law because the claim
implicates “uniquely federal interests.”2 After removnia, acting by and through the city attorneys of Oakland and
San Francisco.
2 The notice of removal also asserted that the complaints are
removable because the Cities’ claim: (1) raises disputed and substantial federal issues, see Grable & Sons Metal Prods., Inc v.

4a
al, the cases were assigned to the same district judge,
Judge William H. Alsup.3
The Cities moved to remand the cases to state court
on the ground that the district court lacked subjectmatter jurisdiction. The district court denied the motion, concluding that it had federal-question jurisdiction under 28 U.S.C. § 1331 because the Cities’ claim
was “necessarily governed by federal common law.”
The district court reasoned that the Cities’ publicnuisance claim raised issues relating to “interstate
and international disputes implicating the conflicting
rights of States or . . . relations with foreign nations”
and that these issues had to be resolved pursuant to
a uniform federal standard.
In response to the district court’s ruling, the Cities
amended their complaints to include a publicnuisance claim under federal common law.4 The
Darue Eng’g & Mfg., 545 U.S. 308, 125 S.Ct. 2363, 162 L.Ed.2d
257 (2005); (2) is “completely preempted” by federal law; (3)
arises out of operations on the outer Continental Shelf, see 43
U.S.C. § 1349(b); (4) implicates actions that the Energy Companies took “pursuant to a federal officer’s directions,” see 28
U.S.C. § 1442(a)(1); (5) arose on “federal enclaves”; and (6) is
related to bankruptcy cases, see 28 U.S.C. §§ 1334(b), 1452(a).
3 Other cities and counties in California filed similar cases
against the Energy Companies and a number of other energy
companies. Those cases were filed in California state court and
removed to federal court, where they were assigned to Judge
Vince G. Chhabria. Judge Chhabria remanded those cases to
state court based on a lack of subject-matter jurisdiction. See
Cty. of San Mateo v. Chevron Corp., 294 F. Supp. 3d 934, 939
(N.D. Cal. 2018). We resolve the appeal from that remand order
in a concurrently filed opinion. See Cty. of San Mateo v. Chevron
Corp., 960 F.3d 586 (9th Cir. 2020).
4 The Cities added the City of Oakland and the City and
County of San Francisco as plaintiffs because federal law, unlike
California law, does not allow a city attorney to bring a public-

5a
amended complaints stated that the federal claim
was added “to conform to the [district court’s] ruling”
and that the Cities “reserve[d] all rights with respect
to whether jurisdiction [is] proper in federal court.”
The Energy Companies moved to dismiss the amended complaints.
In June 2018, the district court held that the
amended complaints failed “to state a claim upon
which relief can be granted.” Fed. R. Civ. P. 12(b)(6).
The district court first determined that it would be
inappropriate to extend federal common law to provide relief because “federal courts should exercise
great caution before fashioning federal common law
in areas touching on foreign affairs,” and the Cities’
claims “implicate[d] the interests of countless governments, both foreign and domestic.” The district
court then dismissed the state-law claim on the
ground that it “must stand or fall under federal common law.” The district court therefore dismissed the
amended complaints for failure to state a claim. On
the same day, the district court requested a joint
statement from the parties regarding whether it was
necessary to reach the pending motions to dismiss for
lack of personal jurisdiction. See Fed. R. Civ. P.
12(b)(2). After BP, ConocoPhillips, Exxon, and Shell
requested a ruling on the issue, the district court
ruled that it lacked personal jurisdiction over those
defendants and dismissed them. The district court
then entered judgments in favor of the Energy Companies and against the Cities.
The Cities appeal the denial of their motions to remand, the dismissal of their complaints for failure to
state a claim, and the district court’s personalnuisance action in federal court in the name of the people of the
State of California.

6a
jurisdiction ruling. We have jurisdiction under 28
U.S.C. § 1291. We review questions of statutory construction and subject-matter jurisdiction de novo.
Ritchey v. Upjohn Drug Co., 139 F.3d 1313, 1315 (9th
Cir. 1998). “[S]tatutes extending federal jurisdiction . . . are narrowly construed so as not to reach beyond the limits intended by Congress.” Phillips v. Osborne, 403 F.2d 826, 828 (9th Cir. 1968).
II
We first consider the Cities’ argument that the district court erred in determining that it had federalquestion jurisdiction under 28 U.S.C. § 1331. In undertaking this analysis, we consider only “the pleadings filed at the time of removal without reference to
subsequent amendments.” Provincial Gov’t of Marinduque v. Placer Dome, Inc., 582 F.3d 1083, 1085 n.1
(9th Cir. 2009) (citation omitted).
A
Federal-question jurisdiction stems from a congressional enactment, 28 U.S.C. § 1331, which provides
that “[t]he district courts shall have original jurisdiction of all civil actions arising under the Constitution,
laws, or treaties of the United States.” The scope of
this statutory grant of jurisdiction is a matter of congressional intent, and the Supreme Court has determined that Congress conferred “a more limited power” than the full scope of judicial power accorded in
the Constitution. Merrell Dow Pharm. Inc. v. Thompson, 478 U.S. 804, 807, 106 S.Ct. 3229, 92 L.Ed.2d
650 (1986).5 The general rule, referred to as the “well5 Article III of the Constitution provides that “[t]he judicial
Power shall extend to all Cases, in Law and Equity, arising under this Constitution, the Laws of the United States, and Treaties made, or which shall be made, under their Authority.” U.S.
Const. art. III, § 2. “[T]he constitutional meaning of ‘arising un-

7a
pleaded complaint rule,” is that a civil action arises
under federal law for purposes of § 1331 when a federal question appears on the face of the complaint.
Caterpillar Inc. v. Williams, 482 U.S. 386, 392, 107
S.Ct. 2425, 96 L.Ed.2d 318 (1987). Because federal
jurisdiction “depends solely on the plaintiff’s claims
for relief and not on anticipated defenses to those
claims,” ARCO Envtl. Remediation, L.L.C. v. Dep’t of
Health & Envtl. Quality of Mont., 213 F.3d 1108,
1113 (9th Cir. 2000), “a case may not be removed to
federal court on the basis of a federal defense, including the defense of preemption, even if the defense is
anticipated in the plaintiff’s complaint, and even if
both parties concede that the federal defense is the
only question truly at issue,” Caterpillar, 482 U.S. at
393, 107 S.Ct. 2425. Therefore, as the “master of the
claim,” the plaintiff can generally “avoid federal jurisdiction by exclusive reliance on state law.” Id. at
392, 107 S.Ct. 2425.
There are a few exceptions to the well-pleadedcomplaint rule, however.
1
First, in a line of cases, beginning with Northern
Pacific Railway Co. v. Soderberg, 188 U.S. 526, 23
S.Ct. 365, 47 L.Ed. 575 (1903), and extending most
recently to Grable & Sons Metal Products, Inc. v. Darue Engineering & Manufacturing, 545 U.S. 308, 125
S.Ct. 2363, 162 L.Ed.2d 257 (2005), the Supreme
Court has recognized a “special and small category” of
state-law claims that arise under federal law for purposes of § 1331 “because federal law is ‘a necessary
der’ may extend to all cases in which a federal question is ‘an
ingredient’ of the action.” Merrell Dow Pharm., 478 U.S. at 807,
106 S.Ct. 3229 (quoting Osborn v. Bank of U.S., 22 U.S. (9
Wheat.) 738, 823, 6 L.Ed. 204 (1824)).

8a
element of the . . . claim for relief.’” Empire
Healthchoice Assur., Inc. v. McVeigh, 547 U.S. 677,
699, 126 S.Ct. 2121, 165 L.Ed.2d 131 (2006) (citation
omitted). Only a few cases have fallen into this “slim
category,” id. at 701, 126 S.Ct. 2121, including: (1) a
series of quiet-title actions from the early 1900s that
involved disputes as to the interpretation and application of federal law, see Hopkins v. Walker, 244 U.S.
486, 489, 37 S.Ct. 711, 61 L.Ed. 1270 (1917) (federal
jurisdiction was proper because “it [was] plain” that
the case involved “a controversy respecting the construction and effect of” federal mining laws); Wilson
Cypress Co. v. Pozo, 236 U.S. 635, 642–43, 35 S.Ct.
446, 59 L.Ed. 758 (1915) (federal jurisdiction was
proper because the plaintiffs relied “upon [a] treaty
with Spain and laws of the United States . . . to defeat [the] defendant’s claim of title”); Soderberg, 188
U.S. at 528, 23 S.Ct. 365 (federal jurisdiction was
proper because the plaintiff’s claim“depend[ed] upon
the proper construction of an act of Congress”); (2) a
shareholder action seeking to enjoin a Missouri corporation from investing in federal bonds on the
ground that the federal act pursuant to which the
bonds were issued was unconstitutional, see Smith v.
Kan. City Title & Tr. Co., 255 U.S. 180, 201, 41 S.Ct.
243, 65 L.Ed. 577 (1921); and (3) a state-quiet title
action claiming that property had been unlawfully
seized by the Internal Revenue Service (IRS) because
the notice of the seizure did not comply with the Internal Revenue Code, see Grable, 545 U.S. at 311, 125
S.Ct. 2363. In other cases where parties have sought
to invoke federal jurisdiction for state-law claims, the
Court has concluded that jurisdiction was lacking,
even when the claims were premised on violations of
federal law, see Merrell Dow Pharm., 478 U.S. at
805–07, 106 S.Ct. 3229; Moore v. Chesapeake & Ohio
Ry. Co., 291 U.S. 205, 210, 54 S.Ct. 402, 78 L.Ed. 755

9a
(1934), required remedies “contemplated by a federal
statute,” Empire Healthchoice, 547 U.S. at 690, 126
S.Ct. 2121, or required the interpretation and application of a federal statute in a hypothetical case underlying a legal malpractice claim, see Gunn v. Minton, 568 U.S. 251, 259, 133 S.Ct. 1059, 185 L.Ed.2d
72 (2013).
The Court has articulated a test for deciding when
this exception to the well-pleaded-complaint rule applies. As explained in Grable and later in Gunn, federal jurisdiction over a state-law claim will lie if a
federal issue is “(1) necessarily raised, (2) actually
disputed, (3) substantial, and (4) capable of resolution
in federal court without disrupting the federal-state
balance approved by Congress.” Gunn, 568 U.S. at
258, 133 S.Ct. 1059 (citing Grable, 545 U.S. at 314,
125 S.Ct. 2363). All four requirements must be met
for federal jurisdiction to be proper. Id.
The Court has often focused on the third requirement, the question whether a case “turn[s] on substantial questions of federal law.” Grable, 545 U.S. at
312, 125 S.Ct. 2363. This inquiry focuses on the importance of a federal issue “to the federal system as a
whole.” Gunn, 568 U.S. at 260, 133 S.Ct. 1059. An issue has such importance when it raises substantial
questions as to the interpretation or validity of a federal statute, see Smith, 255 U.S. at 201, 41 S.Ct. 243;
Hopkins, 244 U.S. at 489–90, 37 S.Ct. 711, or when it
challenges the functioning of a federal agency or program, see Grable, 545 U.S. at 315, 125 S.Ct. 2363
(holding there was federal jurisdiction to address an
action challenging the IRS’s ability to satisfy tax delinquencies by seizing and disposing of property); cf.
Bennett v. Sw. Airlines Co., 484 F.3d 907, 911 (7th
Cir. 2007) (holding that federal jurisdiction was lacking because, among other reasons, the plaintiffs did

10a
not “challenge the validity of any federal agency’s or
employee’s action”). Moreover, an issue may qualify
as substantial when it is a “pure issue of law,” Empire Healthchoice, 547 U.S. at 700, 126 S.Ct. 2121 (citation omitted), that directly draws into question “the
constitutional validity of an act of Congress,” Smith,
255 U.S. at 201, 41 S.Ct. 243, or challenges the actions of a federal agency, see Grable, 545 U.S. at 310,
125 S.Ct. 2363, and a ruling on the issue is “both dispositive of the case and would be controlling in numerous other cases,” Empire Healthchoice, 547 U.S.
at 700, 126 S.Ct. 2121 (citing Grable, 545 U.S. at 313,
125 S.Ct. 2363). By contrast, a federal issue is not
substantial if it is “fact-bound and situation-specific,”
see id. at 701, 126 S.Ct. 2121, or raises only a hypothetical question unlikely to affect interpretations of
federal law in the future, see Gunn, 568 U.S. at 261,
133 S.Ct. 1059. A federal issue is not substantial
merely because of its novelty, see id. at 262, 133 S.Ct.
1059, or because it will further a uniform interpretation of a federal statute, see Merrell Dow Pharm., 478
U.S. at 815–16, 106 S.Ct. 3229.
2
A second exception to the well-pleaded-complaint
rule is referred to as the “artful-pleading doctrine.”
This doctrine “allows removal where federal law completely preempts a plaintiff’s state-law claim,” Rivet
v. Regions Bank of La., 522 U.S. 470, 475, 118 S.Ct.
921, 139 L.Ed.2d 912 (1998), meaning that “the preemptive force of the statute is so ‘extraordinary’ that
it ‘converts an ordinary state common-law complaint
into one stating a federal claim for purposes of the
well-pleaded complaint rule,’” Caterpillar, 482 U.S. at
393, 107 S.Ct. 2425 (quoting Metro. Life Ins. Co. v.
Taylor, 481 U.S. 58, 65, 107 S.Ct. 1542, 95 L.Ed.2d 55
(1987)). To have this effect, a federal statute must

11a
“provide[ ] the exclusive cause of action for the claim
asserted and also set forth procedures and remedies
governing that cause of action.” Beneficial Nat’l Bank
v. Anderson, 539 U.S. 1, 8, 123 S.Ct. 2058, 156
L.Ed.2d 1 (2003).
The Supreme Court has identified only three statutes that meet this criteria: (1) § 301 of the Labor
Management Relations Act (the LMRA), 29 U.S.C.
§ 185, which “displace[s] entirely any state cause of
action ‘for violation of contracts between an employer
and a labor organization,’” Franchise Tax Bd. of Cal.
v. Constr. Laborers Vacation Tr. for S. Cal., 463 U.S.
1, 23, 103 S.Ct. 2841, 77 L.Ed.2d 420 (1983) (citation
omitted); (2) § 502(a) of the Employee Retirement Income Security Act of 1974 (ERISA), 29 U.S.C.
§ 1132(a), which preempts state-law claims asserting
improper processing of a claim for benefits under an
employee-benefit plan regulation by ERISA, Metro.
Life Ins., 481 U.S. at 65–66, 107 S.Ct. 1542; and (3)
§§ 85 and 86 of the National Bank Act, 12 U.S.C.
§§ 85, 86, which provide the “exclusive cause of action
for usury claims against national banks,” Beneficial
Nat’l Bank, 539 U.S. at 9, 123 S.Ct. 2058. In light of
these cases, we have held that complete preemption
for purposes of federal jurisdiction under § 1331 exists when Congress: (1) intended to displace a statelaw cause of action, and (2) provided a substitute
cause of action. Hansen v. Grp. Health Coop., 902
F.3d 1051, 1057 (9th Cir. 2018) (citing Beneficial
Nat’l Bank, 539 U.S. at 8, 123 S.Ct. 2058); accord
Hunter v. United Van Lines, 746 F.2d 635, 642–43
(9th Cir. 1984).
B
We now consider whether the district court erred in
concluding it had jurisdiction over the Cities’ complaints under § 1331. At the time of removal, each

12a
complaint asserted only a single cause of action for
public nuisance under California law. Under the wellpleaded-complaint rule, the district court lacked federal-question jurisdiction unless one of the two exceptions to the well-pleaded-complaint rule applies.
1
We first consider whether the Cities’ state-law
claim for public nuisance falls within the “special and
small category” of state-law claims that arise under
federal law. Empire Healthchoice, 547 U.S. at 699,
126 S.Ct. 2121. The gist of the Cities’ claim is that
the Energy Companies’ production and promotion of
fossil fuels has resulted in rising sea levels, causing
harm to the Cities. Under the Court’s test, we must
determine whether, by virtue of this claim, a federal
issue is “(1) necessarily raised, (2) actually disputed,
(3) substantial, and (4) capable of resolution in federal court without disrupting the federal-state balance
approved by Congress.” Gunn, 568 U.S. at 258, 133
S.Ct. 1059 (citing Grable, 545 U.S. at 314, 125 S.Ct.
2363).
Even assuming that the Cities’ allegations could
give rise to a cognizable claim for public nuisance under federal common law, cf. Am. Elec. Power Co. v.
Connecticut (“AEP”), 564 U.S. 410, 423, 131 S.Ct.
2527, 180 L.Ed.2d 435 (2011), the district court did
not have jurisdiction under § 1331 because the statelaw claim for public nuisance fails to raise a substantial federal question. Adjudicating the claim does not
require resolution of a substantial question of federal
law: the claim neither requires an interpretation of a
federal statute, cf. Grable, 545 U.S. at 310, 125 S.Ct.
2363; Hopkins, 244 U.S. at 489, 37 S.Ct. 711, nor
challenges a federal statute’s constitutionality, cf.
Smith, 255 U.S. at 199, 41 S.Ct. 243. The Energy
Companies also do not identify a legal issue neces-

13a
sarily raised by the claim that, if decided, will “be
controlling in numerous other cases.” Empire
Healthchoice, 547 U.S. at 700, 126 S.Ct. 2121 (citing
Grable, 545 U.S. at 313, 125 S.Ct. 2363). Indeed, it is
not clear that the claim requires an interpretation or
application of federal law at all, because the Supreme
Court has not yet determined that there is a federal
common law of public nuisance relating to interstate
pollution, see AEP, 564 U.S. at 423, 131 S.Ct. 2527,
and we have held that federal public-nuisance claims
aimed at imposing liability on energy producers for
“acting in concert to create, contribute to, and maintain global warming” and “conspiring to mislead the
public about the science of global warming,” Native
Vill. of Kivalina v. ExxonMobil Corp., 696 F.3d 849,
854 (9th Cir. 2012), are displaced by the Clean Air
Act, id. at 858.
Rather than identify a legal issue, the Energy
Companies suggest that the Cities’ state-law claim
implicates a variety of “federal interests,” including
energy policy, national security, and foreign policy.6
The question whether the Energy Companies can be
held liable for public nuisance based on production
and promotion of the use of fossil fuels and be required to spend billions of dollars on abatement is no
doubt an important policy question, but it does not
raise a substantial question of federal law for the
purpose of determining whether there is jurisdiction
under § 1331. Cf. Empire Healthchoice, 547 U.S. at
701, 126 S.Ct. 2121 (holding that the federal government’s “overwhelming interest in attracting able
workers to the federal workforce” and “in the health
6 We do not address whether such interests may give rise to
an affirmative federal defense because such a defense is not
grounds for federal jurisdiction. See, e.g., Caterpillar, 482 U.S.
at 393, 107 S.Ct. 2425.

14a
and welfare of the federal workers upon whom it relies to carry out its functions” was insufficient to
transform a “state-court-initiated tort litigation” into
a “federal case”). Finally, evaluation of the Cities’
claim that the Energy Companies’ activities amount
to a public nuisance would require factual determinations, and a state-law claim that is “fact-bound and
situation-specific” is not the type of claim for which
federal-question jurisdiction lies. Id.; see also Bennett,
484 F.3d at 910 (holding that federal jurisdiction was
lacking when the case required “a fact-specific application of rules that come from both federal and state
law rather than a context-free inquiry into the meaning of a federal law”).
Given that the Cities’ state-law claim does not raise
a substantial federal issue, the claim does not fit
within the “slim category Grable exemplifies,” Empire
Healthchoice, 547 U.S. at 701, 126 S.Ct. 2121, and we
need not consider the remaining requirements articulated in Grable.
2
The Energy Companies also argue that the Cities’
state-law claim for public nuisance arises under federal law because it is completely preempted by the
Clean Air Act. This argument also fails.
The Clean Air Act is not one of the three statutes
that the Supreme Court has determined has extraordinary preemptive force. See Ansley v. Ameriquest
Mortg. Co., 340 F.3d 858, 862 (9th Cir. 2003). Rather,
the Supreme Court has left open the question whether the Clean Air Act preempts a state-law nuisance
claim under ordinary preemption principles. AEP,
564 U.S. at 429, 131 S.Ct. 2527 (“In light of our holding that the Clean Air Act displaces federal common
law, the availability vel non of a state [nuisance] law-

15a
suit depends, inter alia, on the preemptive effect of
the federal Act.”). Nor does the Clean Air Act meet
either of the two requirements for complete preemption. See, e.g., Hansen, 902 F.3d at 1057.
First, the statutory language does not indicate that
Congress intended to preempt “every state law cause
of action within the scope” of the Clean Air Act. In re
NOS Commc’ns, MDL No. 1357, 495 F.3d 1052, 1058
(9th Cir. 2007); see also Beneficial Nat’l Bank, 539
U.S. at 11, 123 S.Ct. 2058 (holding that federal law
provides the exclusive cause of action for usury
claims against national banks such that there is “no
such thing as a state-law claim of usury against a national bank”). Rather, the statute indicates that Congress intended to preserve state-law causes of action
pursuant to a saving clause, 42 U.S.C. § 7416,7 which
“makes clear that states retain the right to ‘adopt or
enforce’ common law standards that apply to emissions” and preserves “[s]tate common law standards . . . against preemption,” Merrick v. Diageo Ams.
Supply, Inc., 805 F.3d 685, 690, 691 (6th Cir. 2015)
(citation omitted). When a federal statute has a saving clause of this sort, Congress did not intend complete preemption, because “there would be nothing . . . to ‘save’” if Congress intended to preempt every state cause of action within the scope of the statute. In re NOS, 495 F.3d at 1058. Moreover, the
7 Section 7416 provides, “Except as otherwise provided in
[statutory exceptions not applicable here] nothing in this chapter shall preclude or deny the right of any State or political subdivision thereof to adopt or enforce (1) any standard or limitation respecting emissions of air pollutants or (2) any requirement respecting control or abatement of air pollution,” except
that no state or local government may “adopt or enforce any
emission standard or limitation which is less stringent than the
standard or limitation” provided for by the Clean Air Act and its
implementing plan. 42 U.S.C. § 7416.

16a
Clean Air Act’s statement that “air pollution control
at its source is the primary responsibility of States
and local governments,” 42 U.S.C. § 7401(a)(3),
weighs against a conclusion that Congress intended
to displace state-law causes of action.
Second, the Clean Air Act does not provide the Cities with a “substitute[ ]” cause of action, Hansen, 902
F.3d at 1057, that is, a cause of action that would allow the Cities to “remedy the wrong [they] assert[ ]
[they] suffered,” Hunter, 746 F.2d at 643. While the
Clean Air Act allows a plaintiff to file a petition to
seek judicial review of certain actions taken by the
Environmental Protection Agency, 42 U.S.C.
§ 7607(b)(1), it does not provide a federal claim or
cause of action for nuisance caused by global warming. Moreover, the Clean Air Act’s citizen-suit provision, § 7604, permits actions for violations of the
Clean Air Act, but it does not provide the Cities with
a free-standing cause of action for nuisance that allows for compensatory damages, see § 7604(a); Mulcahey v. Columbia Organic Chems. Co., 29 F.3d 148,
150 & n.3 (4th Cir. 1994). Thus, the Clean Air Act
satisfies neither requirement for complete preemption.
*

*

*

In sum, because neither exception to the wellpleaded-complaint rule applies to the Cities’ original
complaints, the district court erred in holding that it
had jurisdiction under 28 U.S.C. § 1331 at the time of
removal.
III
Although the district court lacked jurisdiction under 28 U.S.C. § 1331 at the time of removal, that does
not end our inquiry. This is because the Cities cured
any subject-matter jurisdiction defect by amending

17a
their complaints to assert a claim under federal
common law. See Pegram v. Herdrich, 530 U.S. 211,
215 n.2, 120 S.Ct. 2143, 147 L.Ed.2d 164 (2000) (holding that there was “jurisdiction regardless of the correctness of the removal” because the “amended complaint alleged ERISA violations, over which the federal courts have jurisdiction”); Singh v. Am. Honda
Fin. Corp., 925 F.3d 1053, 1070 (9th Cir. 2019); Retail
Prop. Tr. v. United Bhd. of Carpenters & Joiners of
Am., 768 F.3d 938, 949 & n.6 (9th Cir. 2014).8 Thus,
at the time the district court dismissed the Cities’
complaints, there was subject-matter jurisdiction because the operative pleadings asserted a claim “arising under” federal common law. 28 U.S.C. § 1331.
Based on this cure, the Energy Companies raise two
arguments as to why we can affirm the district
court’s dismissals, even if there was no subjectmatter jurisdiction at the time of removal.
First, the Energy Companies argue that the Cities
waived the argument that the district court erred in
refusing to remand the cases to state court because
the Cities amended their complaints to assert a claim
under federal common law. We disagree. The Cities
moved for remand and stated, in their amended complaints, that they included a federal claim “to conform
to the [district court’s] ruling” and that they “reserve[d] all rights with respect to whether jurisdiction is proper in federal court.” This was sufficient to
preserve the argument that removal was improper.
See Caterpillar Inc. v. Lewis, 519 U.S. 61, 73–74, 117
8 We reject the Cities’ argument that any subject-matter jurisdiction defect was not cured because they acted involuntarily
when they added a federal claim to their complaints. Once a
plaintiff asserts a federal claim, regardless whether the plaintiff
does so under protest, the district court has subject-matter jurisdiction. Cf. Pegram, 530 U.S. at 215 n.2, 120 S.Ct. 2143.

18a
S.Ct. 467, 136 L.Ed.2d 437 (1996); Singh, 925 F.3d at
1066.
Second, the Energy Companies argue that any impropriety with respect to removal can be excused because “considerations of finality, efficiency, and economy,” Lewis, 519 U.S. at 75, 117 S.Ct. 467, weigh in
favor of affirming the district court’s dismissal of the
Cities’ complaints. Again, we disagree.
Section 1441(a) requires that a case be “fit for federal adjudication at the time [a] removal petition is
filed.” Id. at 73, 117 S.Ct. 467.9 Because a party violates § 1441(a) if it removes a case that is not fit for
federal adjudication, a district court generally must
remand the case to state court, even if subsequent actions conferred subject-matter jurisdiction on the district court. See, e.g., O’Halloran v. Univ. of Wash., 856
F.2d 1375, 1380–81 (9th Cir. 1988) (directing a district court to remand a complaint to state court even
though the plaintiff amended her complaint to assert
violations of federal law after the district court denied
a motion to remand).
There is, however, a narrow exception to this rule
that takes into account “considerations of finality, efficiency, and economy.” Singh, 925 F.3d at 1065
(quoting Grupo Dataflux v. Atlas Glob. Grp., L.P., 541
U.S. 567, 574, 124 S.Ct. 1920, 158 L.Ed.2d 866
(2004)). Specifically, when a jurisdictional defect has
been cured after removal and the case has been tried
Section 1441(a) provides, in relevant part:
[A]ny civil action brought in a State court of which the district courts of the United States have original jurisdiction,
may be removed by the defendant or the defendants, to the
district court of the United States for the district and division embracing the place where such action is pending.
28 U.S.C. § 1441(a).
9

19a
in federal court, a violation of § 1441(a) can be excused if remanding the case to state court would be
inconsistent “with the fair and unprotracted administration of justice.” Id. (quoting Lewis, 519 U.S. at
77, 117 S.Ct. 467).
The decision to excuse a violation of § 1441(a) depends on the stage of the underlying proceedings.
When a case “has been tried in federal court,” “considerations of finality, efficiency, and economy become overwhelming,” Lewis, 519 U.S. at 75, 117 S.Ct.
467, and in those circumstances, the Supreme Court
has refused to “wipe out the adjudication postjudgment” so long as the there was jurisdiction when the
district court entered judgment, id. at 77, 117 S.Ct.
467; see also Grubbs v. Gen. Elec. Credit Corp., 405
U.S. 699, 702, 92 S.Ct. 1344, 31 L.Ed.2d 612 (1972).
For instance, in Lewis, the Court excused a violation
of § 1441(a) when the case was litigated in federal
court for over three years, culminating in a six-day
jury trial. 519 U.S. at 66–67, 117 S.Ct. 467. “Requiring [remand] after years of litigation,” the Court explained, “would impose unnecessary and wasteful
burdens on the parties, judges, and other litigants
waiting for judicial attention.” Id. at 76, 117 S.Ct. 467
(quoting Newman-Green, Inc. v. Alfonzo-Larrain, 490
U.S. 826, 836, 109 S.Ct. 2218, 104 L.Ed.2d 893
(1989)). We have extended this reasoning to cases
where the district court resolves “state law issues on
the merits” at summary judgment. Singh, 925 F.3d at
1071.10 For instance, we excused a violation of
10 We have held that this rule does not apply when we reverse
the grant of summary judgment, such that there is no longer a
“judgment on the merits.” Prize Frize, Inc. v. Matrix (U.S.) Inc.,
167 F.3d 1261, 1266 (9th Cir. 1999), superseded by statute on
other grounds as recognized in Abrego Abrego v. Dow Chem. Co.,
443 F.3d 676, 681 (9th Cir. 2006); accord Emard v. Hughes Air-

20a
§ 1441(a) when, after extensive motion practice and
discovery, the district court granted summary judgment in favor of the defendants. Id. at 1061–62. We
reasoned that the case was sufficiently analogous to
one in which there was a trial on the merits and
therefore held that “[c]onsiderations of finality, efficiency, and economy” counseled in favor of excusing
the violation of § 1441(a). Id. at 1071 (quoting Lewis,
519 U.S. at 75, 117 S.Ct. 467).
This reasoning, however, generally will not apply
when a district court dismisses a complaint for failure
to state a claim under Rule 12(b)(6). That rule is designed “to enable defendants to challenge the legal
sufficiency of complaints without subjecting themselves to discovery,” the cost of which can be “prohibitive.” Rutman Wine Co. v. E. & J. Gallo Winery, 829
F.2d 729, 738 (9th Cir. 1987). “[T]he purpose of a motion under Rule 12(b)(6) is to test the formal sufficiency of . . . [a] claim for relief; the motion is not a
procedure for resolving a contest between the parties
about the facts or the substantive merits of the plaintiff’s case.” 5B Arthur R. Miller et al., Federal Practice & Procedure § 1356 (3d ed. 2020). In contrast, a
motion for summary judgment is designed to “test
whether there is a genuine issue of material fact” and
“often involves the use of pleadings, depositions, answers to interrogatories, and affidavits.” Id. Moreover, summary judgment is appropriate only if the
“movant is entitled to judgment as a matter of law,”
Fed. R. Civ. P. 56(a), whereas “the usual course of action upon granting a defendant’s Rule 12(b)(6) motion
is to allow a plaintiff to amend his or her complaint,”
Waste Control Specialists, LLC v. Envirocare of Tex.,
craft Co., 153 F.3d 949, 962 (9th Cir. 1998), abrogated on other
grounds by Egelhoff v. Egelhoff ex rel. Breiner, 532 U.S. 141,
146, 121 S.Ct. 1322, 149 L.Ed.2d 264 (2001).

21a
Inc., 199 F.3d 781, 786 (5th Cir.), opinion withdrawn
and superseded in part on reh’g, 207 F.3d 225 (5th
Cir. 2000).
In light of these differences, we agree with the Fifth
Circuit that a dismissal under Rule 12(b)(6), unlike a
grant of summary judgment, is generally “insufficient
to forestall an otherwise proper remand.” Camsoft
Data Sys., Inc. v. S. Elecs. Supply, Inc., 756 F.3d 327,
338 (5th Cir. 2014). We have recognized that the
“concern for judicial economy” is slight when a case is
pending for under a year, the plaintiff engages in no
discovery, and the district court dismisses the case
“at an early stage, prior to trial on the merits.” Dyer
v. Greif Bros., 766 F.2d 398, 399, 401 (9th Cir. 1985),
superseded by statute on other grounds as stated in
Beeman v. Olson, 828 F.2d 620, 621 (9th Cir. 1987). A
case consumes a “minimum of judicial resources” if it
is pending for only a few months before it is dismissed under Rule 12(b)(6). Waste Control Specialists, 199 F.3d at 787. Likewise, the Sixth Circuit has
recognized that “concerns for judicial economy” are
insignificant when dismissal comes “so early in the
pleadings stage that there has been minimal investment of the parties’ time in discovery or of the court’s
time in judicial proceedings or deliberations.” Chivas
Prods. Ltd. v. Owen, 864 F.2d 1280, 1286–87 (6th Cir.
1988), abrogated on other grounds by Tafflin v. Levitt,
493 U.S. 455, 461, 110 S.Ct. 792, 107 L.Ed.2d 887
(1990). In short, “considerations of finality, efficiency,
and economy” are rarely, if ever, “overwhelming”
when a district court dismisses a case at the pleading
stage before the parties have engaged in discovery.11
11 In Parrino v. FHP, Inc., we held that a defendant’s failure
to comply with a judge-made procedural requirement for removal did not warrant reversal of a dismissal under Rule 12(b)(6)
and “remand of the matter to state court.” 146 F.3d 699, 703

22a
In this case, “considerations of finality, efficiency,
and economy” are far from “overwhelming.” Lewis,
519 U.S. at 75, 117 S.Ct. 467. When the district court
entered judgments, the cases had been on its docket
for less than a year—just over eight months. The parties engaged in motion practice under Rule 12, and
there had been no discovery. Although the district
court held hearings and the parties presented a “tutorial” on global warming, that is a relatively modest
use of judicial resources as compared to, for example,
three years of litigation, culminating in a six-day jury
trial. See id. at 66–67, 117 S.Ct. 467. Because the district court dismissed these cases at the pleading
stage, after they were pending for less than a year
and before the parties engaged in discovery, we conclude that “considerations of finality, efficiency, and
economy” are not “overwhelming.” Id. at 75, 117 S.Ct.
467; see Camsoft Data Sys., 756 F.3d at 338; Waste
Control Specialists, 199 F.3d at 786; Dyer, 766 F.2d at
401; Chivas Prods., 864 F.2d at 1286–87. Accordingly,
if there was not subject-matter jurisdiction at the
time of removal, the cases must proceed in state
court.
IV
The district court did not address the alternative
bases for removal asserted in the Energy Companies’
notices of removal. And we generally do not consider
issues “not passed upon below.” Am. President Lines,
Ltd. v. Int’l Longshore &Warehouse Union, Alaska
Longshore Div., Unit 60, 721 F.3d 1147, 1157 (9th
Cir. 2013) (quoting Singleton v. Wulff, 428 U.S. 106,
(9th Cir. 1998), superseded by statute on other grounds as recognized in Abrego Abrego, 443 F.3d at 681. But Parrino is not applicable when a case is removed in violation of § 1441(a), resulting in a “statutory defect” with respect to removal. Grupo Dataflux, 541 U.S. at 574, 124 S.Ct. 1920.

23a
120, 96 S.Ct. 2868, 49 L.Ed.2d 826 (1976)). Accordingly, we remand these cases to the district court to determine whether there was an alternative basis for
jurisdiction.12 If there was not, the cases should be
remanded to state court.13 This panel will retain jurisdiction for any subsequent appeals arising from
these cases.
VACATED AND REMANDED.14

12 The district court requested supplemental briefing on how
the concept of the “‘navigable waters of the United States’ . . .
relates to the removal jurisdiction issue in th[e] case.” As the
Cities pointed out, however, the Energy Companies waived any
argument related to admiralty jurisdiction by not invoking it in
their notices of removal. See 28 U.S.C. § 1446(a) (notice of removal must “contain[ ] a short and plain statement of the
grounds for removal”); ARCO, 213 F.3d at 1117 (notice of removal “cannot be amended to add a separate basis for removal
jurisdiction after the thirty day period” (citation omitted));
O’Halloran, 856 F.2d at 1381 (same). Thus, the district court
should confine its analysis to the bases for jurisdiction asserted
in the notices of removal.
13 We do not reach the question whether the district court
lacked personal jurisdiction over four of the defendants. If, on
remand, the district court determines that the cases must proceed in state court, the Cities are free to move the district court
to vacate its personal-jurisdiction ruling. Cf. Ruhrgas AG v.
Marathon Oil Co., 526 U.S. 574, 587–88, 119 S.Ct. 1563, 143
L.Ed.2d 760 (1999) (stating that in most instances “expedition
and sensitivity to state courts’ coequal stature should impel [a]
federal court to dispose of [subject-matter jurisdiction] issue[s]
first”); Cerner Middle E. Ltd. v. Belbadi Enters. LLC, 939 F.3d
1009, 1014 (9th Cir. 2019) (holding that the case should be remanded to state court based on a lack of subject-matter jurisdiction and declining to reach the issue of personal jurisdiction);
Special Invs., Inc. v. Aero Air, Inc., 360 F.3d 989, 994–95 (9th
Cir. 2004).
14

Each party shall bear its own costs on appeal.

24a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
————
No. C 17-06011 WHA
and
No. C 17-06012 WHA
————
CITY OF OAKLAND, a Municipal Corporation, and THE
PEOPLE OF THE STATE OF CALIFORNIA, acting by and
through Oakland City Attorney BARBARA J. PARKER,
Plaintiffs,
v.
BP P.L.C., a public limited company of England and
Wales, CHEVRON CORPORATION, a Delaware
corporation, CONOCOPHILLIPS, a Delaware
corporation, EXXON MOBIL CORPORATION, a New
Jersey corporation, ROYAL DUTCH SHELL PLC, a
public limited company of England and Wales, DOES,
1 through 10,
Defendants
AND RELATED CASE.
————
Signed June 25, 2018
————
ORDER GRANTING MOTION TO
DISMISS AMENDED COMPLAINTS
————
WILLIAM ALSUP, United States District Judge:

25a
INTRODUCTION
In these “global warming” actions asserting claims
for public nuisance, defendants move to dismiss for
failure to state a claim. For the following reasons, the
motion is GRANTED.
STATEMENT
These actions arise out of a vital function of our
atmosphere—its thermostat function—that is, keeping the temperature of our planet within a habitable
range. The atmosphere hosts water vapor and certain
trace gases without which heat at Earth’s surface
would excessively radiate into space, leaving our
planet too cold for life. One of those trace gases is
carbon dioxide, a gas produced by, among other
things, animal and human respiration, volcanoes
and, more significantly here, combustion of fossil
fuels like oil and natural gas. As heat radiates skyward, some of it passes close enough to molecules of
carbon dioxide to be absorbed. These molecules then
re-radiate the energy in all directions, including back
toward Earth’s surface. The more carbon dioxide in
the air, the more this absorption and re-radiation
process warms the surface. It turns out that even
trace amounts of carbon dioxide in the air suffice to
warm the atmosphere.1
The science dates back 120 years. In 1896, building
on the findings by Irish scientist (and mountaineer)
John Tyndall that carbon dioxide absorbed heat
(whereas oxygen and nitrogen did not), Swedish scientist Svante Arrhenius published calculations that
connected increases in the air’s carbon dioxide with
1 Our case involves all greenhouse gases, including methane,
but “[c]arbon dioxide is by far the most important greenhouse
gas” (Amd. Compls. ¶ 74).

26a
increased global temperatures. Arrhenius, however,
had no concern over global warming. Rather, his focus remained solving the mystery of the ice ages and
their causes (Amd. Compls. ¶ 76; Svante Arrhenius,
On the Influence of Carbonic Acid in the Air Upon the
Temperature of the Ground, 41 Phil. Mag. & J. Sci.
237 (1896)).2
In 1938, scientist Guy Stewart Callendar published
graphs plotting the warming of Earth using temperature records from around the world. One graph
showed a 0.07 Centigrade rise in the mean temperatures of the planet from 1910 to 1930, while another
showed a six to eight-percent rise in carbon dioxide in
the air over the same period. Given Tyndall’s earlier
finding, Callendar concluded that one rise had caused
the other, namely that more carbon dioxide had
trapped more heat and caused the temperature to
rise. Callendar, like Arrhenius, was not alarmed over
the possibility of global warming. Guy S. Callendar,
The Artificial Production of Carbon Dioxide and Its
Influence on Temperature, 64 Q. J. Royal Meteorological Soc’y 223 (1938).
In 1957, oceanographer Roger Revelle and chemist
Hans Suess published a critique of a then prevailing
view that the oceans would absorb excessive airborne
carbon dioxide and thus reduce the risk of an atmospheric buildup of carbon dioxide. Referring to the on2 In 1859–1861, Tyndall discovered that the main gases in the
atmosphere, nitrogen and oxygen, were transparent to infrared
radiation but that carbon dioxide was opaque, meaning carbon
dioxide absorbed infrared radiation. Tyndall recognized that
carbon dioxide kept Earth warmer than would be the case without it. John Tyndall, On the Absorption and Radiation of Heat
by Gases and Vapours, and on the Physical Connexion of Radiation, Absorption, and Conduction, 151 Phil. Trans. Royal Soc’y
London 1 (1861).

27a
going combustion of fossil fuels and release of carbon
dioxide, they concluded: “[h]uman beings are now
carrying out a large scale geophysical experiment of a
kind that could not have happened in the past nor be
reproduced in the future” (Amd. Compls. ¶ 77).
Revelle later obtained funding to measure the
buildup of carbon dioxide in the atmosphere, arranging for scientist Charles David Keeling to reside on
Mauna Loa in Hawaii to measure and graph the realtime concentrations of carbon dioxide. This project
produced the famous Keeling Curve, a graph that
shows a steady rise in atmospheric carbon dioxide,
year after year, like clockwork (id. ¶ 78; see also
NOAA, EARTH SYSTEMS RESEARCH LABORATORY, GLOBAL MONITORING DIVISION, https://
www.esrl.noaa.gov/gmd/ccgg/trends/full.html (last
visited June 15, 2018)).
From this brief history up to the Sixties, it would be
wrong to conclude that scientists had sounded alarm
bells for global warming. Arrhenius was more concerned with global cooling than warming. Revelle
said a large-scale, one-time experiment was in progress, but he sounded no alarm bells at the time.
But alarm bells over climate change eventually did
sound. In 1988, the United Nations established the
Intergovernmental Panel on Climate Change
(“IPCC”). Its main objective was to prepare—based on
the best available scientific information—periodic assessments regarding all aspects of climate change,
with a view of formulating realistic response strategies. The IPCC had three working groups: Working
Group I assessed the scientific aspects of climate
change, Working Group II assessed the vulnerability
and adaptation of socioeconomic and natural systems
to climate change, and Working Group III assessed

28a
the mitigation options for limiting greenhouse gas
emissions (Amd. Compls. ¶¶ 82–86).
The IPCC completed its first assessment report in
1990. The report made a persuasive case for anthropogenic interference with the climate system, and
each subsequent report (about five to six years apart)
incorporated advancements in measurements, observations, and modeling—and each presented a more
precise picture of how our climate has changed, and
what has changed it. The fifth assessment report, released in 2013, was abundantly clear:
Warming of the climate system is unequivocal,
and since the 1950s, many of the observed
changes are unprecedented over decades and
millennia. The atmosphere and ocean have
warmed, the amounts of snow and ice have diminished, sea level has risen, and the concentrations of greenhouse gases have increased.
The report was also clear as to the cause, stating that
it was “extremely likely” that “human influence has
been the dominant cause of the observed warming
since the mid-20th century” (ibid.).3
The science acknowledges that causes beyond the
burning of fossil fuels are also at work. Deforestation
has been and remains a significant contributor to the
rise in carbon dioxide. Others include volcanoes and
wildfires in greater numbers. Nevertheless, even acknowledging these other contributions, climate scientists are in vast consensus that the combustion of fossil fuels has, in and of itself, materially increased
carbon dioxide levels, which in turn has materially
increased the median temperature of the planet,
3 The IPCC anticipates the release of a special report in October 2018 and the sixth assessment report in 2021.

29a
which in turn has accelerated ice melt and raised
(and continues to raise) the sea level.
In sum, in the last 120 years, the amount of carbon
dioxide (and methane) in the air has increased, with
most of the increase having come in recent decades.
During that time, the median temperature of Earth
has increased 1.8 degrees Fahrenheit. Glaciers
around the world have been shrinking. Ice sheets
over Greenland and Antarctica have been melting.
The sea level has risen by about seven centimeters
since 1993 (about seven to eight inches since 1900).
As our globe warms and the seas rise, coastal lands in
Oakland and San Francisco will, without erection of
seawalls and other infrastructure, eventually become
submerged by the navigable waters of the United
States (id. ¶¶ 86–90, 124–36).
Defendants Chevron Corporation, Exxon Mobil
Corporation, BP p.l.c., Royal Dutch Shell plc, and
ConocoPhillips are the five largest investor-owned (as
opposed to state-owned) producers of fossil fuels in
the world, as measured by the greenhouse gas emissions allegedly generated from the use of the fossil
fuels they have produced. They are the first (Chevron), second (Exxon), fourth (BP), sixth (Shell) and
ninth (ConocoPhillips) largest cumulative producers
of fossil fuels worldwide and are collectively responsible for over eleven percent of all carbon dioxide and
methane pollution that has accumulated in the atmosphere since the Industrial Revolution (id. ¶ 94).
Defendants have allegedly long known the threat
fossil fuels pose to the global climate. Nonetheless,
they continued to extract and produce them in massive amounts while engaging in widespread advertising and communications campaigns meant to promote the sale of fossil fuels. These campaigns portrayed fossil fuels as environmentally responsible and

30a
essential to human well-being and downplayed the
risks of global warming by emphasizing the uncertainties of climate science or attacking the credibility
of climate scientists (id. ¶¶ 95–123).
In September 2017, Oakland and San Francisco
commenced these actions in state court. The original
complaints each asserted a single claim for public
nuisance under California law. After defendants removed the actions to this district, an order dated February 27, 2018, denied plaintiffs’ motions to remand
(Dkt. Nos. 1, 134).4
Given the international scope of plaintiffs’ claims
and that the very instrumentality of the anticipated
coastal flooding is uniquely federal—namely, the navigable waters of the United States—one threshold issue presented by these cases was whether federal
common law should govern (rather than state law).
The February 27 order concluded:
Plaintiffs’ claims for public nuisance, though pled
as state-law claims, depend on a global complex
of geophysical cause and effect involving all nations of the planet (and the oceans and atmosphere). It necessarily involves the relationships
between the United States and all other nations.
It demands to be governed by as universal a rule
of apportioning responsibility as is available.
This order does not address whether (or not)
plaintiffs have stated claims for relief. But plaintiffs’ claims, if any, are governed by federal
common law. Federal jurisdiction is therefore
proper.

4 All docket numbers herein refer to the docket in Case No.
17-cv-06011-WHA.

31a
Plaintiffs have since amended their complaints to
plead a separate claim for public nuisance under federal common law. The amended complaints also substituted defendant ConocoPhillips for its subsidiary,
ConocoPhillips Company, and added the City of Oakland and the City and County of San Francisco as
plaintiffs to the federal nuisance claims, among other
additions. On March 21, to standing room only, counsel and their experts conducted a science tutorial for
the undersigned judge. Defendants now move to dismiss the amended complaints for failure to state a
claim (Dkt. Nos. 174, 199, 225). This order follows full
briefing, oral argument, and supplemental briefing.5
ANALYSIS
The issue is not over science. All parties agree that
fossil fuels have led to global warming and ocean rise
and will continue to do so, and that eventually the
navigable waters of the United States will intrude
upon Oakland and San Francisco. The issue is a legal
one—whether these producers of fossil fuels should
pay for anticipated harm that will eventually flow
from a rise in sea level.
The sole claim for relief is for “public nuisance,” a
claim governed by federal common law. The specific
nuisance is global-warming induced sea level rise.
Plaintiffs’ theory, to repeat, is that defendants’ sale of
fossil fuels leads to their eventual combustion, which
leads to more carbon dioxide in the atmosphere,
which leads to more global warming and consequent
ocean rise.
5 At the Court’s invitation, the United States submitted an
amicus brief on the question of whether or not (and the extent to
which) federal common law affords the relief requested by plaintiffs. The Attorneys General of eighteen States also submitted
amicus briefs (Dkt. Nos. 224, 236, 245).

32a
The scope of plaintiffs’ theory is breathtaking. It
would reach the sale of fossil fuels anywhere in the
world, including all past and otherwise lawful sales,
where the seller knew that the combustion of fossil
fuels contributed to the phenomenon of global warming. While these actions are brought against the first,
second, fourth, sixth and ninth largest producers of
fossil fuels, anyone who supplied fossil fuels with
knowledge of the problem would be liable. At one
point, counsel seemed to limit liability to those who
had promoted allegedly phony science to deny climate
change. But at oral argument, plaintiffs’ counsel clarified that any such promotion remained merely a
“plus factor.” Their theory rests on the sweeping
proposition that otherwise lawful and everyday sales
of fossil fuels, combined with an awareness that
greenhouse gas emissions lead to increased global
temperatures, constitute a public nuisance.6
A public nuisance under federal common law, both
sides agree, is an “unreasonable interference with a
right common to the general public,” as set forth in
the Restatement (Second) of Torts § 821B(1) (1979).
Putting aside momentarily the important issue of
displacement, a successful public nuisance claim
therefore requires proof that a defendant’s activity
unreasonably interferes with the use or enjoyment of
a public right and thereby causes the public-at-large
substantial and widespread harm. Native Vill. of Kivalina v. ExxonMobil Corp., 696 F.3d 849, 855 (9th

6 This clarification seems to have been aimed at avoiding the
Noerr-Pennington doctrine and other free speech issues inherent
in predicating liability on publications designed to influence
public policy. See E. R. R. Presidents Conference v. Noerr Motor
Freight, Inc., 365 U.S. 127 (1961); United Mine Workers v. Pennington, 381 U.S. 657 (1965).

33a
Cir. 2012) (citing Missouri v. Illinois, 200 U.S. 496,
521 (1906)).
No plaintiff has ever succeeded in bringing a nuisance claim based on global warming. But courts that
have addressed such claims, as well as the parties
here, have turned to the Restatement to analyze
whether the common law tort of nuisance can be applied in this context.7
Section 821B of the Restatement sets forth three
tests for whether an interference with a public right
is unreasonable:
(a) Whether the conduct involves a significant interference with the public health, the public safety, the public peace, the public comfort or the
public convenience, or
(b) whether the conduct is proscribed by a statute, ordinance or administrative regulation, or
(c) whether the conduct is of a continuing nature
or has produced a permanent or long-lasting effect, and, as the actor knows or has reason to
know, has a significant effect upon the public
right.
To be held liable for a public nuisance, a defendant’s interference with a public right can either be
intentional, or unintentional and otherwise actiona7 Although plaintiffs analogize these actions to earlier lawsuits against “Big Tobacco,” only one court has ever sustained a
public nuisance theory against a tobacco company. Evans v. Lorillard Tobacco Co., No. 04-2840A, 2007 WL 796175 (Mass. Super. Ct. Feb. 7, 2007). Every other court to reach the issue, however, has rejected a public nuisance theory. See, e.g., Allegheny
Gen. Hosp. v. Phillip Morris, 228 F.3d 429, 446 (3d Cir. 2000);
Texas v. Am. Tobacco Co., 14 F. Supp. 2d 956, 972–73 (E.D. Tex.
1997).

34a
ble under principles controlling liability for negligence, recklessness, or abnormally dangerous activities. Restatement § 821B cmt. e. Where, as alleged
here, the interference is intentional, “it must also be
unreasonable.” Ibid. This determination, in turn, involves “the weighing of the gravity of the harm
against the utility of the conduct,” guidance for which
is set forth in Sections 826 through 831 of the Restatement. Ibid. If the interference was unintentional, the principles governing negligence, recklessness,
or abnormally dangerous activities also “embody in
some degree the concept of unreasonableness.” Ibid.
The commentary to Sections 826 through 831 explain, among other things, that “in determining
whether the gravity of the interference with the public right outweighs the utility of the actor’s conduct, it
is necessary to consider the extent and character of
the interference, the social value that the law attaches to it, the character of the locality involved and the
burden of avoiding the harm placed upon members of
the public.” Id. at § 827 cmt. a. Relatedly, in evaluating the utility of the conduct, “it is necessary to consider the social value that the law attaches to the
primary purpose of the conduct, the suitability of the
conduct to the character of the locality and the impracticality of preventing or avoiding the invasion.”
Id. at § 828 cmt. a.
With respect to balancing the social utility against
the gravity of the anticipated harm, it is true that
carbon dioxide released from fossil fuels has caused
(and will continue to cause) global warming. But
against that negative, we must weigh this positive:
our industrial revolution and the development of our
modern world has literally been fueled by oil and
coal. Without those fuels, virtually all of our monumental progress would have been impossible. All of

35a
us have benefitted. Having reaped the benefit of that
historic progress, would it really be fair to now ignore
our own responsibility in the use of fossil fuels and
place the blame for global warming on those who
supplied what we demanded? Is it really fair, in light
of those benefits, to say that the sale of fossil fuels
was unreasonable?
This order recognizes but does not resolve these
questions, for there is a more direct resolution from
the Supreme Court and our court of appeals, next
considered.8
1. DISPLACEMENT.
The Supreme Court has held that the Clean Air Act
and the EPA’s authority thereunder to set emission
standards have displaced federal common law nuisance claims to enjoin a defendant’s emission of
greenhouse gases. Am. Elec. Power Co., Inc. v. Connecticut, 564 U.S. 410 (2011) (“AEP”). In Kivalina,
our court of appeals extended the Clean Air Act displacement rule to claims for damages based on an oil
producer’s past emissions. 696 F.3d 849. In other
words, Congress has vested in the EPA the problem

8 Another problem involves timing. Although plaintiffs allege
that global warming has already caused sea level rise, Oakland
and San Francisco have yet to build a seawall or other infrastructure for which they seek reimbursement. The United States
Army Corps of Engineers has already proposed projects to address the problem and is likely to help protect plaintiffs’ property and residents. Oakland and San Francisco may eventually
incur expense over and above federal outlays, but that is neither
certain nor imminent. If and when those expense items are actually incurred, defendants will still be in business and will be
good for any liability. Requiring them to pay now into an anticipatory “abatement fund” would be like walking to the pay window before the race is over.

36a
of greenhouse gases and has given it plenary authority to solve the problem at the point of emissions.
Here, by contrast, defendants stand accused, not for
their own emissions of greenhouse gases, but for their
sale of fossil fuels to those who eventually burn the
fuel. Is this distinction enough to avoid displacement
under AEP and Kivalina? The harm alleged by our
plaintiffs remains a harm caused by fossil fuel emissions, not the mere extraction or even sale of fossil
fuels. This order holds that, were this the only distinction, AEP and Kivalina would still apply. If an oil
producer cannot be sued under the federal common
law for their own emissions, a fortiori they cannot be
sued for someone else’s.
The amended complaints, however, add another
dimension not addressed in AEP or Kivalina, namely
that the conduct and emissions contributing to the
nuisance arise outside the United States, although
their ill effects reach within the United States. Specifically, emissions from the use of defendants’ fossil
fuels abroad send greenhouse gases into our atmosphere, warm our globe, melt its ice, raise sea levels,
and, via the navigable waters of the United States,
threaten coastal flooding in Oakland and San Francisco. The February 27 order concluded that because
plaintiffs’ nuisance claims centered on defendants’
placement of fossil fuels into the flow of international
commerce, and because foreign emissions are out of
the EPA and Clean Air Act’s reach, the Clean Air Act
did not necessarily displace plaintiffs’ federal common law claims. Nevertheless, these claims are foreclosed by the need for federal courts to defer to the
legislative and executive branches when it comes to
such international problems, as now explained.

37a
2. INTERFERENCE WITH SEPARATION OF
POWERS AND FOREIGN POLICY.
The Supreme Court has given us caution in formulating new claims under federal common law. Sosa v.
Alvarez-Machain, 542 U.S. 692 (2004). Sosa and earlier decisions “cast doubt on the authority of courts to
extend or create private causes of action even in the
realm of domestic law, where [the Supreme Court]
has ‘recently and repeatedly said that a decision to
create a private right of action is one better left to
legislative judgment in the great majority of cases.’”
Jesner v. Arab Bank, PLC, 138 S. Ct. 1386, 1402
(2018) (citing Sosa, 542 U.S. at 727). The Supreme
Court has also “remain[ed] mindful that it does not
have the creative power akin to that vested in Congress.” AEP, 564 U.S. at 422. One consideration
weighing in favor of judicial caution is where “modern
indications of congressional understanding of the judicial role in the field have not affirmatively encouraged greater judicial creativity.” Sosa, 542 U.S. at
728.
As explained above, plaintiffs’ claims require a balancing of policy concerns—including the harmful effects of greenhouse gas emissions, our industrialized
society’s dependence on fossil fuels, and national security. Through the Clean Air Act, Congress “entrust[ed] such complex balancing to the EPA in the
first instance, in combination with state regulators.”
AEP, 564 U.S. at 427. And, not long ago, the problem
wasn’t too much oil, but too little, and our national
policy emphasized the urgency of reducing dependence on foreign oil. In enacting the Energy Policy Act
of 1992, for example, Congress expressed that it was
“the goal of the United States in carrying out energy
supply and energy conservation research and development . . . to strengthen national energy security by

38a
reducing dependence on imported oil.” 42 U.S.C.
§ 13401. In our industrialized and modern society, we
needed (and still need) oil and gas to fuel power
plants, vehicles, planes, trains, ships, equipment,
homes and factories. Our industrial revolution and
our modern nation, to repeat, have been fueled by
fossil fuels.
In light of AEP, plaintiffs shift their focus to sales
of fossil fuels worldwide, beyond the reach of the EPA
and the Clean Air Act. This shift to foreign lands,
however, runs counter to another cautionary restriction, the presumption against extraterritoriality.
The Supreme Court has cautioned that where recognizing a new claim for relief under federal common
law could affect foreign relations, courts should be
“particularly wary of impinging on the discretion of
the Legislative and Executive Branches in managing
foreign affairs.” Sosa, 542 U.S. at 727. In Kiobel v.
Royal Dutch Petroleum Co., 569 U.S. 108 (2013), the
Supreme Court held that the principles underlying
the presumption against extraterritoriality also constrain courts considering claims brought under the
Alien Tort Statute. The presumption “serves to protect against unintended clashes between our laws
and those of other nations” and “helps ensure that
the Judiciary does not erroneously adopt an interpretation of U.S. law that carries foreign policy consequences not clearly intended by the political branches.” Id. at 115–16 (citations and internal quotation
marks omitted). While courts “typically apply the
presumption to discern whether an Act of Congress
regulating conduct applies abroad,” Kiobel recognized
that “the danger of unwarranted judicial interference
in the conduct of foreign policy is magnified” where
“the question is not what Congress has done but instead what courts may do.” Id. at 116. And where a

39a
claim “reaches conduct within the territory of another
sovereign,” concerns of “unwarranted judicial interference” in foreign policy “are all the more pressing.”
Id. at 117. Importantly, “[t]he political branches, not
the Judiciary, have the responsibility and institutional capacity to weigh foreign-policy concerns.” Jesner, 138 S. Ct. at 1403.
Here, plaintiffs seek to impose liability on five companies for their production and sale of fossil fuels
worldwide. These claims—through which plaintiffs
request billions of dollars to abate the localized effects of an inherently global phenomenon—
undoubtedly implicate the interests of countless governments, both foreign and domestic. The challenged
conduct is, as far as the complaints allege, lawful in
every nation. And, as the United States aptly notes,
many foreign governments actively support the very
activities targeted by plaintiffs’ claims (USA Amicus
Br. at 18). Nevertheless, plaintiffs would have a single judge or jury in California impose an abatement
fund as a result of such overseas behavior. Because
this relief would effectively allow plaintiffs to govern
conduct and control energy policy on foreign soil, we
must exercise great caution.
Global warming is already the subject of international agreements. The United States is also engaged
in active discussions with other countries as to
whether and how climate change should be addressed
through a coordinated framework (ibid.). The Montreal Protocol on Substances that Deplete the Ozone
Layer, signed by 197 countries to eliminate chlorofluorocarbons (CFCs), demonstrates that global cooperation can work, even if getting there remains difficult. Everyone has contributed to the problem of
global warming and everyone will suffer the conse-

40a
quences—the classic scenario for a legislative or international solution.
This order fully accepts the vast scientific consensus that the combustion of fossil fuels has materially
increased atmospheric carbon dioxide levels, which in
turn has increased the median temperature of the
planet and accelerated sea level rise. But questions of
how to appropriately balance these worldwide negatives against the worldwide positives of the energy
itself, and of how to allocate the pluses and minuses
among the nations of the world, demand the expertise
of our environmental agencies, our diplomats, our
Executive, and at least the Senate. Nuisance suits in
various United States judicial districts regarding
conduct worldwide are far less likely to solve the
problem and, indeed, could interfere with reaching a
worldwide consensus.
Plaintiffs argue against this result on several
grounds. First, plaintiffs argue that adjudication of
plaintiffs’ claims would not infringe on the role of the
political branches because the undersigned judge
need not weigh or consider the social utility of defendants’ conduct. The commentary to Section 826 of
the Restatement explains that in some scenarios
harm may be “so severe” that the conduct becomes
unreasonable “as a matter of law,” and that in such
situations monetary recovery is available “regardless
of the utility of the activity in the abstract.” Restatement § 826 cmt. b. Plaintiffs similarly rely on Section
829A, which provides:
An intentional invasion of another’s interest in
the use and enjoyment of land is unreasonable if
the harm resulting from the invasion is severe
and greater than the other should be required to
bear without compensation.

41a
Plaintiffs claim that the harm alleged in these actions is “undeniably severe” such that global warming
constitutes a nuisance as a matter of law. But in
AEP, the Supreme Court addressed public nuisance
claims based on similar allegations of harm, and
nonetheless cautioned that policy questions concerning global warming require an “informed assessment
of competing interests” and that “[a]long with the environmental benefit potentially achievable, our Nation’s energy needs and the possibility of economic
disruption must weigh in the balance.” 564 U.S. at
427.
Plaintiffs next cite to Section 821B, comment i (entitled “Action for damages distinguished from one for
injunction”) which provides:
In determining whether to award damages, the
court’s task is to decide whether it is unreasonable to engage in the conduct without paying for
the harm done. Although a general activity may
have great utility it may still be unreasonable to
inflict the harm without compensating for it. In
an action for injunction the question is whether
the activity itself is so unreasonable that it must
be stopped. It may be reasonable to continue an
important activity if payment is made for the
harm it is causing, but unreasonable to continue
it without paying.
This question of reasonableness nevertheless falls
squarely within the type of balancing best left to
Congress (or diplomacy). Judge Martin Jenkins rejected a similar argument in People of the State of
California v. General Motors Corp., No. 06-cv-05755,
2007 WL 2726871 (N.D. Cal. Sept. 17, 2007). There,
the State of California sued several automakers for
contributing to global warming. California argued
that because it sought damages, resolution of its fed-

42a
eral common law public nuisance claim would not require the district court to determine whether the defendants’ actions had been unreasonable, but rather
whether the interference suffered by California was
unreasonable. Id. at *8. Judge Jenkins disagreed that
this distinction would allow him to avoid making policy determinations, explaining that “regardless of the
relief sought, the Court is left to make an initial decision as to what is unreasonable in the context of carbon dioxide emissions.” Ibid. So too here.
Finally, plaintiffs point to Section 826, which provides:
An intentional invasion of another’s interest in
the use and enjoyment of land is unreasonable if
(a) the gravity of the harm outweighs the utility
of the actor’s conduct, or (b) the harm caused by
the conduct is serious and the financial burden of
compensating for this and similar harm to others
would not make the continuation of the conduct
not feasible.
Plaintiffs claim that they can be compensated pursuant to subsection (b), which does not require weighing the utility of defendants’ conduct. The commentary to this section is clear, however, that “[i]f imposition of this financial burden would make continuation
of the activity not feasible, the weighing process for
determining unreasonableness is similar to that in a
suit for injunction.” Restatement § 826 cmt. f. In
these actions alone, two plaintiffs seek billions of dollars each in the form of an abatement fund. It seems
a near certainty that judgments in favor of the plaintiffs who have brought similar nuisance claims based
on identical conduct (let alone those plaintiffs who
have yet to file suit) would make the continuation of
defendants’ fossil fuel production “not feasible.” This
order accordingly disagrees that it could ignore the

43a
public benefits derived from defendants’ conduct in
adjudicating plaintiffs’ claims. In the aggregate, the
adjustment of conflicting pros and cons ought to be
left to Congress or diplomacy.9
Second, plaintiffs point to the Court of Appeals for
the Second Circuit’s decision in AEP, where the court
held that a global-warming nuisance claim did not
present non-justiciable political questions, a conclusion affirmed by an equally-divided Supreme Court.
AEP, 564 U.S. at 420 n.6. As previously explained,
however, AEP addressed different claims. To be sure,
the Second Circuit disagreed that it had been asked
“to fashion a comprehensive and far-reaching solution
to global climate change, a task that arguably falls
within the purview of the political branches.” Connecticut v. Am. Elec. Power Co., 582 F.3d 309, 325 (2d
Cir. 2009), rev’d on other grounds, 564 U.S. 410
(2011). But in doing so, the court highlighted that the
plaintiffs there sought only to limit emissions from
six domestic coal-fired electricity plants, and that “[a]
decision by a single federal court concerning a common law of nuisance cause of action, brought by domestic plaintiffs against domestic companies for domestic conduct, does not establish a national or international emissions policy (assuming that emissions caps are even put into place).” Ibid. (emphasis
9 The parties have identified seven similar actions brought by
cities and counties across the country. Cty. of San Mateo v.
Chevron Corp., et al., No. 17-cv-4929 (N.D. Cal.); City of Imperial Beach v. Chevron Corp., et al., No. 17-cv-4934 (N.D. Cal.); Cty.
of Marin v. Chevron Corp., et al., No. 17-cv-4935 (N.D. Cal.); Cty.
of Santa Cruz v. Chevron Corp., et al., No. 18-cv-450 (N.D. Cal.);
City of Santa Cruz v. Chevron Corp., et al., No. 18-cv-458 (N.D.
Cal.); City of Richmond v. Chevron Corp., et al., No. 18-cv-732
(N.D. Cal.); City of New York v. BP P.L.C., et al., No. 18-cv-182
(S.D.N.Y.); King Cty. v. BP P.L.C., et al., No. 18-2-11859-0 (Sup.
Ct. King Cty., Wash.).

44a
in original). Here, the claims are plainly not so limited.
Third, plaintiffs argue that Sosa and its progeny
are not instructive because those decisions arose in
the context of the Alien Tort Statute. The Alien Tort
Statute simply provides that “[t]he district courts
shall have original jurisdiction of any civil action by
an alien for a tort only, committed in violation of the
law of nations or a treaty of the United States.” 28
U.S.C. § 1350. “The statute provides district courts
with jurisdiction to hear certain claims, but does not
expressly provide any causes of action.” Kiobel, 569
U.S. at 114–15. This grant of jurisdiction is “read as
having been enacted on the understanding that the
common law would provide a cause of action for [a]
modest number of international law violations.” Sosa,
542 U.S. at 724. Federal courts may therefore “recognize private claims [for such violations] under federal
common law.” Id. at 732. The broader point made by
the Supreme Court in these decisions is that federal
courts should exercise great caution before fashioning
federal common law in areas touching on foreign affairs. For the reasons explained above, such concerns
of caution are squarely presented here. The federal
common law claims must be dismissed.
*

*

*

The foregoing disposes of the federal common law
claims in their entirety. The amended complaints also
assert a state law claim for public nuisance. For the
reasons stated in the February 27 order denying remand, however, plaintiffs’ nuisance claims must
stand or fall under federal common law. Accordingly,
plaintiffs’ state law claims must also be dismissed.

45a
CONCLUSION
It may seem peculiar that an earlier order refused
to remand this action to state court on the ground
that plaintiffs’ claims were necessarily governed by
federal law, while the current order concludes that
federal common law should not be extended to provide relief. There is, however, no inconsistency. It
remains proper for the scope of plaintiffs’ claims to be
decided under federal law, given the international
reach of the alleged wrong and given that the instrumentality of the alleged harm is the navigable
waters of the United States. Although the scope of
plaintiffs’ claims is determined by federal law, there
are sound reasons why regulation of the worldwide
problem of global warming should be determined by
our political branches, not by our judiciary.
In sum, this order accepts the science behind global
warming. So do both sides. The dangers raised in the
complaints are very real. But those dangers are
worldwide. Their causes are worldwide. The benefits
of fossil fuels are worldwide. The problem deserves a
solution on a more vast scale than can be supplied by
a district judge or jury in a public nuisance case.
While it remains true that our federal courts have
authority to fashion common law remedies for claims
based on global warming, courts must also respect
and defer to the other co-equal branches of government when the problem at hand clearly deserves a
solution best addressed by those branches. The Court
will stay its hand in favor of solutions by the legislative and executive branches. For the reasons stated,
defendants’ motion to dismiss is GRANTED.
IT IS SO ORDERED.

46a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
————
No. C 17-06011 WHA
No. C 17-06012 WHA
————
THE PEOPLE OF THE STATE OF CALIFORNIA,
Plaintiff,
v.
BP P.L.C., et al.,
Defendants.
————
Signed February 27, 2018
————
ORDER DENYING MOTIONS TO REMAND
————
WILLIAM ALSUP, United States District Judge:
INTRODUCTION
In these “global warming” actions asserting claims
for public nuisance under state law, plaintiff municipalities move to remand. For the following reasons,
the motions are DENIED.
STATEMENT
Oakland and San Francisco brought these related
actions in California Superior Court against defendants BP p.l.c, Chevron Corporation, ConocoPhillips
Company, Exxon Mobil Corporation, and Royal Dutch

47a
Shell plc. Defendants are the first (Chevron), second
(Exxon), fourth (BP), sixth (Shell) and ninth (ConocoPhillips) largest cumulative producers of fossil fuels
worldwide (Compls. ¶ 10).
Burning fossil fuels adds carbon dioxide to that already naturally present in our atmosphere. Plaintiffs
allege that the combustion (by others) of fossil fuels
produced by defendants has increased atmospheric
levels of carbon dioxide and, as a result, raised global
temperatures and melted glaciers to cause a rise in
sea levels, and thus caused flooding in Oakland and
San Francisco (Oakl. Compl. ¶¶ 38, 48, 50; SF Compl.
¶¶ 38, 49, 51).
The complaints do not seek to impose liability for
direct emissions of carbon dioxide, which emissions
flow from combustion in worldwide machinery that
use such fuels, like automobiles, jets, ships, train engines, powerplants, heating systems, factories, and so
on. Rather, plaintiffs’ state law nuisance claims are
premised on the theory that—despite long-knowing
that their products posed severe risks to the global
climate—defendants produced fossil fuels while simultaneously engaging in large scale advertising and
public relations campaigns to discredit scientific research on global warming, to downplay the risks of
global warming, and to portray fossil fuels as environmentally responsible and essential to human wellbeing (Oakl. Compl. ¶¶ 11, 62–83; SF Compl. ¶¶ 11,
63–84).
The complaints further allege that accelerated sea
level rise has and will continue to inundate public
and private property in Oakland and San Francisco.
Although plaintiffs (and the federal government
through the Army Corps of Engineers) have already
taken action to abate the harm of sea level rise, the
magnitude of such actions will continue to increase.

48a
The complaints stress that a severe storm surge, coupled with higher sea levels, could result in loss of life
and extensive damage to public and private property
(Oakl. Compl. ¶¶ 84–92; SF Compl. ¶¶ 85–93).
Based on these allegations, each complaint asserts
a single cause of action under California public nuisance law. As relief, such complaints seek an abatement fund to pay for seawalls and other infrastructure needed to address rising sea levels (Oakl. Compl.
¶¶ 93–98; SF Compl. ¶¶ 94–99, Relief Requested ¶ 2).
Defendants removed these actions. Plaintiffs now
move to remand to state court. This order follows full
briefing and oral argument.1
ANALYSIS
Plaintiffs’ nuisance claims—which address the national and international geophysical phenomenon of
global warming—are necessarily governed by federal
common law. District courts have original jurisdiction
over “all civil actions arising under the Constitution,
laws, or treaties of the United States,” including
claims brought under federal common law. Nat’l
Farmers Union Ins. Cos. v. Crow Tribe of Indians,
471 U.S. 845, 850 (1985) (citing 28 U.S.C. § 1331).
Federal jurisdiction over these actions is therefore
proper.
Federal courts, unlike state courts, do not possess a
general power to develop and apply their own rules of
1 Six similar actions, filed by the County of San Mateo, City of
Imperial Beach, County of Marin, County of Santa Cruz, City of
Santa Cruz and City of Richmond, respectively, are pending in
this district before Judge Vince Chhabria (Case Nos. 17-cv-4929,
17-cv-4934, 17-cv-4935, 18-cv-0450, 18-cv-0458, 18-cv-0732). In
comparison to the instant cases, these actions assert additional
claims (including product liability, negligence, and trespass)
against additional defendants.

49a
decision. City of Milwaukee v. Illinois, 451 U.S. 304,
312 (1981) (“Milwaukee II”). Federal common law is
appropriately fashioned, however, where a federal
rule of decision is “necessary to protect uniquely federal interests.” Texas Indus., Inc. v. Radcliff Materials, Inc., 451 U.S. 630, 640 (1981). While not all federal interests fall into this category, uniquely federal
interests exist in “interstate and international disputes implicating the conflicting rights of States or
our relations with foreign nations.” Id. at 641. In such
disputes, the “nature of the controversy makes it inappropriate for state law to control.” Ibid.
In Illinois v. City of Milwaukee, 406 U.S. 91, 107
n.9 (1972) (“Milwaukee I”), for example, the Supreme
Court applied federal common law to an interstate
nuisance claim, explaining that:
Federal common law and not the varying common law of the individual States is, we think, entitled and necessary to be recognized as a basis
for dealing in uniform standard with the environmental rights of a State against improper impairment by sources outside its domain. The
more would this seem to be imperative in the
present era of growing concern on the part of a
State about its ecological conditions and impairments of them. In the outside sources of such
impairment, more conflicting disputes, increasing assertions and proliferating contentions
would seem to be inevitable. Until the field has
been made the subject of comprehensive legislation or authorized administrative standards, only
a federal common law basis can provide an adequate means for dealing with such claims as alleged federal rights.
The Supreme Court has continued to affirm that,
post-Erie, federal common law includes the general

50a
subject of environmental law and specifically includes
ambient or interstate air and water pollution. Am.
Elec. Power Co., Inc. v. Connecticut, 564 U.S. 410, 421
(2011) (“AEP”). Both our court of appeals and the Supreme Court have addressed the viability of the federal common law of nuisance to address global warming. The parties sharply contest the import of these
decisions.
The plaintiffs in AEP brought suit against five domestic emitters of carbon dioxide, alleging that by
contributing to global warming, those defendants had
violated the federal common law of interstate nuisance, or, in the alternative, state tort law. 564 U.S.
at 418. The Supreme Court recognized that environmental protection “is undoubtedly an area within national legislative power, one in which federal courts
may fill in statutory interstices, and, if necessary,
even fashion federal law.” Id. at 421 (internal quotes
and citations omitted). It held, however, that because
the Clean Air Act “[spoke] directly” to the issue of
carbon-dioxide emissions from domestic power-plants,
the Act displaced any federal common law right to
seek an abatement of defendants’ emissions. Id. at
424–25. AEP did not reach the plaintiffs’ state law
claims. Instead, Justice Ginsburg explained that “the
availability vel non of a state lawsuit depend[ed], inter alia, on the preemptive effect of the federal Act,”
and left the matter open for consideration on remand.
Id. at 429.
Our court of appeals addressed similar claims in
Native Village of Kivalina v. ExxonMobil Corp., 696
F.3d 849 (9th Cir. 2012) (“Kivalina”). Citing to AEP,
the appellate court held that the Clean Air Act also
displaced federal common law nuisance claims for
damages caused by global warming. Id. at 856. Kivalina underscored that “federal common law can ap-

51a
ply to transboundary pollution suits,” and that most
often such suits are—as here—founded on a theory of
public nuisance. Id. at 855. But Kivalina also failed to
reach the plaintiffs’ state law claims, which the district court had dismissed without prejudice to their
re-filing in state court. Id. at 858; Native Vill. of Kivalina v. ExxonMobil Corp., 663 F. Supp. 2d 863,
882–83 (N.D. Cal. 2009) (Judge Saundra Brown Armstrong).
Here, as in Milwaukee I, AEP, and Kivalina, a uniform standard of decision is necessary to deal with
the issues raised in plaintiffs’ complaints. If ever a
problem cried out for a uniform and comprehensive
solution, it is the geophysical problem described by
the complaints, a problem centuries in the making
(and studying) with causes ranging from volcanoes, to
wildfires, to deforestation to stimulation of other
greenhouse gases—and, most pertinent here, to the
combustion of fossil fuels. The range of consequences
is likewise universal—warmer weather in some places that may benefit agriculture but worse weather in
others, e.g., worse hurricanes, more drought, more
crop failures and—as here specifically alleged—the
melting of the ice caps, the rising of the oceans, and
the inevitable flooding of coastal lands. Taking the
complaints at face value, the scope of the worldwide
predicament demands the most comprehensive view
available, which in our American court system means
our federal courts and our federal common law. A
patchwork of fifty different answers to the same fundamental global issue would be unworkable. This is
not to say that the ultimate answer under our federal
common law will favor judicial relief. But it is to say
that the extent of any judicial relief should be uniform across our nation.

52a
Plaintiffs raise three primary arguments in seeking
to avoid federal common law. None are persuasive.
First, plaintiffs argue that—in contrast to earlier
transboundary pollution suits such as AEP and Kivalina—plaintiffs’ nuisance claims are brought
against sellers of a product rather than direct dischargers of interstate pollutants. Extending federal
common law to the current dispute, plaintiffs caution,
would extend the scope of federal nuisance law well
beyond its original justification. To be sure, plaintiffs
raise novel theories of liability. And it is also true, of
course, that the development of federal common law
is necessary only in a “few and restricted instances.”
Milwaukee II, 451 U.S. at 313. As explained above,
however, the transboundary problem of global warming raises exactly the sort of federal interests that necessitate a uniform solution. This is no less true because plaintiffs assert a novel theory of liability, nor
is it less true because plaintiffs’ theory mirrors the
sort of state-law claims that are traditionally applied
to products made in other states and sold nationally.2
Plaintiffs’ reliance on National Audubon Society v.
Department of Water, 869 F.2d 1196 (9th Cir. 1988),
is also misplaced. There, our court of appeals held
2 Notably, in support of their theory of liability plaintiffs cite
decisions where the alleged nuisance was caused by a product’s
use in California. In People v. ConAgra Grocery Products Company, 17 Cal. App. 5th 51 (2017), the plaintiffs sued producers
and manufacturers of lead paint, arguing that the defendants
deceptively minimized its dangers and promoted its use. The
plaintiffs there, however, sought abatement only with respect to
products used in California buildings. Similarly, the claims in
Ileto v. Glock Inc., 349 F.3d 1191 (9th Cir. 2003), concerned the
manufacture and marketing of firearms but stemmed from the
shooting of six individuals in Los Angeles. Plaintiffs’ claims
here, by contrast, are not localized to California and instead
concern fossil fuel consumption worldwide.

53a
that federal nuisance law did not extend to claims
concerning a California agency’s diversion of water
from a lake wholly within the state. Although the water diversion may have led to air pollution in both
California and Nevada, our court of appeals found
that it was “essentially a domestic dispute” in which
application of state law would not be inappropriate.
Id. at 1204–05. The court underscored, however, that
the Supreme Court does consider the application of
state law inappropriate (and the application of federal law appropriate) in “those interstate controversies
which involve a state suing sources outside of its own
territory.” Id. at 1205.
Second, plaintiffs contend that—even if their claims
are tantamount to the interstate pollution claims
raised in AEP and Kivalina—the Clean Air Act displaces such federal common law claims. Moreover,
they argue, International Paper Company v. Ouellette, 479 U.S. 481 (1987), held that once federal
common law is displaced, state law once again governs.
This order presumes that when congressional action displaces federal common law, state law becomes
available to the extent it is not preempted by statute.
AEP, 564 U.S. at 429. But while AEP and Kivalina
left open the question of whether nuisance claims
against domestic emitters of greenhouse gases could
be brought under state law, they did not recognize
the displacement of the federal common law claims
raised here. Emissions from domestic sources are certainly regulated by the Clean Air Act, but plaintiffs
here have fixated on an earlier moment in the train of
industry, the earlier moment of production and sale
of fossil fuels, not their combustion.
Through the Clean Air Act, Congress established a
comprehensive state and federal scheme to control air

54a
pollution in the United States. 42 U.S.C. § 7401 et
seq. The central elements of this comprehensive
scheme are (1) the Act’s provisions for uniform national standards of performance for new stationary
sources of air pollution, § 7411, (2) the Act’s provisions for uniform national emission standards for certain air pollutants, § 7412, (3) the Act’s promulgation
of primary and secondary national ambient air quality standards, §§ 7408–09, and (4) the development of
national ambient air quality standards for motor vehicle emissions, § 7521. The Clean Air Act displaced
the nuisance claims asserted in Kivalina and AEP
because the Act “spoke directly” to the issues presented—domestic emissions of greenhouse gases. The
same cannot be said here.
Plaintiffs’ nuisance claims center on an alleged
scheme to produce and sell fossil fuels while deceiving the public regarding the dangers of global warming and the benefits of fossil fuels. Plaintiffs do not
bring claims against emitters, but rather bring claims
against defendants for having put fossil fuels into the
flow of international commerce. Importantly, unlike
AEP and Kivalina, which sought only to reach domestic conduct, plaintiffs’ claims here attack behavior
worldwide. While some of the fuel produced by defendants is certainly consumed in the United States
(emissions from which are regulated by the Clean Air
Act), greenhouse gases emanating from overseas
sources are equally guilty (perhaps more so) of causing plaintiffs’ harm. Yet these foreign emissions are
out of the EPA and Clean Air Act’s reach.
For displacement to occur, “[t]he existence of laws
generally applicable to the question is not sufficient;
the applicability of displacement is an issue-specific
inquiry.” Kivalina, 696 F.3d at 856. In Milwaukee I,
the Supreme Court considered multiple statutes po-

55a
tentially affecting the federal question but ultimately
concluded that no statute directly addressed the
question and accordingly held that the federal common law public nuisance claim had not been displaced. 406 U.S. at 101–03. Here, the Clean Air Act
does not provide a sufficient legislative solution to the
nuisance alleged to warrant a conclusion that this
legislation has occupied the field to the exclusion of
federal common law.
Third, the well-pleaded complaint rule does not bar
removal of these actions. Federal jurisdiction exists
in this case if the claims necessarily arise under federal common law. Wayne v. DHL Worldwide Express,
294 F.3d 1179, 1184 (9th Cir. 2002). Plaintiffs concede that our court of appeals recognized this rule,
but contend that it should be ignored as dicta. To the
contrary, in support Wayne cited Milwaukee I, where
the Supreme Court explained that a claim “‘arises
under’ federal law if the dispositive issues stated in
the complaint require the application of federal common law.” 406 U.S. at 100.3
Plaintiffs’ claims for public nuisance, though pled
as state-law claims, depend on a global complex of
geophysical cause and effect involving all nations of
the planet (and the oceans and atmosphere). It necessarily involves the relationships between the United
3 Plaintiffs’ remaining authorities on this point are inapposite.
Contrary to plaintiffs, our court of appeals found that it lacked
subject-matter jurisdiction over the state-law claims asserted in
Patrickson v. Dole Food Company because it was merely possible
that “the federal common law of foreign relations might arise as
an issue.” 251 F.3d 795, 803 (9th Cir. 2001) (emphasis added).
Similarly, the complaint in Provincial Government of Marinduque v. Placer Dome, Inc., 582 F.3d 1083, 1090 (9th Cir. 2009),
did not raise federal law on its face, but rather implicated it “only defensively.”

56a
States and all other nations. It demands to be governed by as universal a rule of apportioning responsibility as is available. This order does not address
whether (or not) plaintiffs have stated claims for relief. But plaintiffs’ claims, if any, are governed by
federal common law. Federal jurisdiction is therefore
proper.
The foregoing is sufficient to deny plaintiffs’ motions for remand. It is worth noting, however, that
other issues implicated by plaintiffs’ claims also
demonstrate the proprietary of federal common law
jurisdiction. Importantly, the very instrumentality of
plaintiffs’ alleged injury—the flooding of coastal
lands—is, by definition, the navigable waters of the
United States. Plaintiffs’ claims therefore necessarily
implicate an area quintessentially within the province of the federal courts. See Michigan v. U.S. Army
Corps of Eng’rs, 667 F.3d 765, 772 (7th Cir. 2011).
This issue was not waived, as defendants timely invoked federal common law as a grounds for removal.
CONCLUSION
For the foregoing reasons, plaintiffs’ motions for
remand are DENIED.
CERTIFICATION UNDER 28 U.S.C. § 1292(b)
The district court hereby certifies for interlocutory
appeal the issue of whether plaintiffs’ nuisance
claims are removable on the ground that such claims
are governed by federal common law. This order finds
that this is a controlling question of law as to which
there is substantial ground for difference of opinion
and that its resolution by the court of appeals will
materially advance the litigation. (This certification,
however, is not itself a stay of proceedings.)
IT IS SO ORDERED.

57a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
————
No. 18-16663
————
CITY OF OAKLAND, a Municipal Corporation, and The
People of the State of California, acting by and
through the Oakland City Attorney; CITY AND
COUNTY OF SAN FRANCISCO, a Municipal Corporation,
and The People of the State of California, acting by
and through the San Francisco City Attorney Dennis
J. Herrera,
Plaintiffs-Appellants,
v.
BP PLC, a public limited company of England and
Wales; CHEVRON CORPORATION, a Delaware
corporation; CONOCOPHILLIPS, a Delaware
corporation; EXXON MOBIL CORPORATION, a New
Jersey corporation; ROYAL DUTCH SHELL PLC, a
public limited company of England and Wales; DOES,
1 through 10,
Defendants-Appellees.
————
Appeal from the United States District Court
for the Northern District of California
William Alsup, District Judge, Presiding,
D.C. Nos.
3:17-cv-06011-WHA
3:17-cv-06012-WHA
————

58a
Argued and Submitted February 5, 2020
Pasadena, California
Filed May 26, 2020
Amended August 12, 2020
————
Before: Sandra S. Ikuta, Morgan Christen,
and Kenneth K. Lee, Circuit Judges.
————
ORDER
————
The opinion filed on May 26, 2020, appearing at
960 F.3d 570 (9th Cir. 2020), is amended as follows:
At page 585, footnote 12, replace:
<The district court requested supplemental briefing
on how the concept of the “ ‘navigable waters of the
United States’ … relates to the removal jurisdiction
issue in th[e] case.” As the Cities pointed out, however, the Energy Companies waived any argument related to admiralty jurisdiction by not invoking it in
their notices of removal. See 28 U.S.C. § 1446(a) (notice of removal must “contain[ ] a short and plain
statement of the grounds for removal”); ARCO, 213
F.3d at 1117 (notice of removal “cannot be amended
to add a separate basis for removal jurisdiction after
the thirty day period” (citation omitted)); O’Halloran,
856 F.2d at 1381 (same). Thus, the district court
should confine its analysis to the bases for jurisdiction asserted in the notices of removal.>
with
<The Energy Companies identified six alternate
bases for subject-matter jurisdiction in their notices
of removal. See supra note 2. On appeal, the Energy

59a
Companies identified admiralty jurisdiction, 28
U.S.C. § 1333, as a seventh alternate basis for jurisdiction. As the Cities point out, however, the Energy
Companies waived any argument related to admiralty jurisdiction by not invoking it in their notices of
removal. See 28 U.S.C. § 1446(a) (notice of removal
must “contain[ ] a short and plain statement of the
grounds for removal”); ARCO, 213 F.3d at 1117 (notice of removal “cannot be amended to add a separate
basis for removal jurisdiction after the thirty day period” (citation omitted)); O’Halloran, 856 F.2d at 1381
(same). Because the deadline for amending the notices of removal has passed, the Energy Companies may
not rely on admiralty jurisdiction as a basis for removal on remand. Moreover, the Energy Companies’
related argument that there is federal-question jurisdiction, 28 U.S.C. § 1331, because “the instrumentality of the alleged harm is the navigable waters of the
United States,” fails for the reasons set forth in Part
II, supra.>
***
With this amendment, the panel has unanimously
voted to deny Defendants-Appellees’ Petition for Panel Rehearing and/or Rehearing En Banc (ECF No.
175).
The full court has been advised of the Petition for
Panel Rehearing and/or Rehearing En Banc, and no
Judge has requested a vote on whether to rehear the
matter en banc. Fed. R. App. P. 35.
The Petition for Panel Rehearing and/or Rehearing
En Banc is DENIED. No further petitions for rehearing or rehearing en banc may be filed.

